<html>
<title> - HEARING ON PROPOSALS FOR A WATER RESOURCES DEVELOPMENT ACT OF 2010</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



                            PROPOSALS FOR A
                            WATER RESOURCES
                        DEVELOPMENT ACT OF 2010

=======================================================================

                                (111-77)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                    WATER RESOURCES AND ENVIRONMENT

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                           November 18, 2009

                               __________


                       Printed for the use of the
             Committee on Transportation and Infrastructure



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



                  U.S. GOVERNMENT PRINTING OFFICE
  53-679 PDF              WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001








             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                 JAMES L. OBERSTAR, Minnesota, Chairman

NICK J. RAHALL, II, West Virginia,   JOHN L. MICA, Florida
Vice Chair                           DON YOUNG, Alaska
PETER A. DeFAZIO, Oregon             THOMAS E. PETRI, Wisconsin
JERRY F. COSTELLO, Illinois          HOWARD COBLE, North Carolina
ELEANOR HOLMES NORTON, District of   JOHN J. DUNCAN, Jr., Tennessee
Columbia                             VERNON J. EHLERS, Michigan
JERROLD NADLER, New York             FRANK A. LoBIONDO, New Jersey
CORRINE BROWN, Florida               JERRY MORAN, Kansas
BOB FILNER, California               GARY G. MILLER, California
EDDIE BERNICE JOHNSON, Texas         HENRY E. BROWN, Jr., South 
GENE TAYLOR, Mississippi             Carolina
ELIJAH E. CUMMINGS, Maryland         TIMOTHY V. JOHNSON, Illinois
LEONARD L. BOSWELL, Iowa             TODD RUSSELL PLATTS, Pennsylvania
TIM HOLDEN, Pennsylvania             SAM GRAVES, Missouri
BRIAN BAIRD, Washington              BILL SHUSTER, Pennsylvania
RICK LARSEN, Washington              JOHN BOOZMAN, Arkansas
MICHAEL E. CAPUANO, Massachusetts    SHELLEY MOORE CAPITO, West 
TIMOTHY H. BISHOP, New York          Virginia
MICHAEL H. MICHAUD, Maine            JIM GERLACH, Pennsylvania
RUSS CARNAHAN, Missouri              MARIO DIAZ-BALART, Florida
GRACE F. NAPOLITANO, California      CHARLES W. DENT, Pennsylvania
DANIEL LIPINSKI, Illinois            CONNIE MACK, Florida
MAZIE K. HIRONO, Hawaii              LYNN A WESTMORELAND, Georgia
JASON ALTMIRE, Pennsylvania          JEAN SCHMIDT, Ohio
TIMOTHY J. WALZ, Minnesota           CANDICE S. MILLER, Michigan
HEATH SHULER, North Carolina         MARY FALLIN, Oklahoma
MICHAEL A. ARCURI, New York          VERN BUCHANAN, Florida
HARRY E. MITCHELL, Arizona           ROBERT E. LATTA, Ohio
CHRISTOPHER P. CARNEY, Pennsylvania  BRETT GUTHRIE, Kentucky
JOHN J. HALL, New York               ANH ``JOSEPH'' CAO, Louisiana
STEVE KAGEN, Wisconsin               AARON SCHOCK, Illinois
STEVE COHEN, Tennessee               PETE OLSON, Texas
LAURA A. RICHARDSON, California
ALBIO SIRES, New Jersey
DONNA F. EDWARDS, Maryland
SOLOMON P. ORTIZ, Texas
PHIL HARE, Illinois
JOHN A. BOCCIERI, Ohio
MARK H. SCHAUER, Michigan
BETSY MARKEY, Colorado
PARKER GRIFFITH, Alabama
MICHAEL E. McMAHON, New York
THOMAS S. P. PERRIELLO, Virginia
DINA TITUS, Nevada
HARRY TEAGUE, New Mexico
VACANCY

                                  (ii)






            Subcommittee on Water Resources and Environment

                EDDIE BERNICE JOHNSON, Texas, Chairwoman

THOMAS S. P. PERRIELLO, Virginia     JOHN BOOZMAN, Arkansas
JERRY F. COSTELLO, Illinois          DON YOUNG, Alaska
GENE TAYLOR, Mississippi             JOHN J. DUNCAN, Jr., Tennessee
BRIAN BAIRD, Washington              VERNON J. EHLERS, Michigan
TIMOTHY H. BISHOP, New York          FRANK A. LoBIONDO, New Jersey
RUSS CARNAHAN, Missouri              GARY G. MILLER, California
STEVE KAGEN, Wisconsin               HENRY E. BROWN, Jr., South 
DONNA F. EDWARDS, Maryland Vice      Carolina
Chair                                TODD RUSSELL PLATTS, Pennsylvania
SOLOMON P. ORTIZ, Texas              BILL SHUSTER, Pennsylvania
PHIL HARE, Illinois                  MARIO DIAZ-BALART, Florida
DINA TITUS, Nevada                   CONNIE MACK, Florida
HARRY TEAGUE, New Mexico             LYNN A WESTMORELAND, Georgia
ELEANOR HOLMES NORTON, District of   CANDICE S. MILLER, Michigan
Columbia                             ROBERT E. LATTA, Ohio
MICHAEL E. CAPUANO, Massachusetts    ANH ``JOSEPH'' CAO, Louisiana
GRACE F. NAPOLITANO, California      PETE OLSON, Texas
MAZIE K. HIRONO, Hawaii
HARRY E. MITCHELL, Arizaon
JOHN J. HALL, New York
PARKER GRIFFITH, Alabama
BOB FILNER, California
CORRINE BROWN, Florida
VACANCY
JAMES L. OBERSTAR, Minnesota
  (Ex Officio)

                                 (iii)













                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    vi

                               TESTIMONY

Boustany, Jr., Honorable Charles, a Representative in Congress 
  from the State of Louisiana....................................     6
Klein, Honorable Ron, a Representative in Congress from the State 
  of Florida.....................................................     6
Kosmas, Honorable Suzanne, a Representative in Congress from the 
  State of Florida...............................................     6
Loebsack, Honorable Dave, a Representative in Congress from the 
  State of Iowa..................................................     6
Melancon, Honorable Charlie, a Representative in Congress from 
  the State of Louisiana.........................................     6
Scalise, Honorable Steve, a Representative in Congress from the 
  State of Louisiana.............................................     6
Whitfield, Honorable Ed, a Representative in Congress from the 
  State of Kentucky..............................................     6

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Bordallo, Hon. Madeleine Z., of Guam.............................    23
Carnahan, Hon. Russ, of Missour..................................    25
Latta, Hon. Robert E., of Ohio...................................    26
Stupak, Hon. Bart, of Missouri...................................    29

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Boustany, Jr., Honorable Charles.................................    33
Klein, Honorable Ron.............................................    35
Kosmas, Honorable Suzanne........................................    36
Loebsack, Honorable Dave.........................................    39
Melancon, Honorable Charlie......................................    41
Scalise, Honorable Steve.........................................    43

                       SUBMISSION FOR THE RECORD

Boustany, Jr., Honorable Charles, a Representative in Congress 
  from the State of Louisiana, letter to Chairman Oberstar and 
  Ranking Member Mica............................................    11
Kosmas, Honorable Suzanne, a Representative in Congress from the 
  State of Florida, letter from Volusia County, Florida..........     8

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



 
   HEARING ON PROPOSALS FOR A WATER RESOURCES DEVELOPMENT ACT OF 2010

                              ----------                              


                      Wednesday, November 18, 2009

                  House of Representatives,
   Subcommittee on Water Resources and Environment,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:00 p.m. in 
room 2167, Rayburn House Office Building, the Honorable Eddie 
Bernice Johnson [Chairman of the Subcommittee], presiding.
    Present: Representatives Johnson, Boozman, Cao, Napolitano, 
Hare, Bishop, Edwards and Perriello.
    Ms. Johnson. Good afternoon.
    Today the Subcommittee continues its work on a Water 
Resources Development Act of 2010. Enactment of a new water 
resources bill to address the current needs of the Nation is a 
high priority of mine and I am certain of all our Committee 
Members.
    In the last Congress, the Committee was successful in 
moving a water resources bill that contained close to seven 
years' worth of projects, studies, new authorizations and 
project modifications. There was such broad support for that 
legislation that Congress soundly overruled President Bush's 
veto with what was only the 107th veto override in history. It 
is now appropriate to develop legislation that will address 
needs that have arisen since enactment of that legislation.
    As of the date of the hearing, the Committee has begun 
accepting project requests from Members for consideration in 
the Water Resources Development Act. Every person that submits 
must submit something in their own districts. We can be very 
supportive of projects we know are needed, but it takes someone 
from that area to sponsor it.
    I look forward to working with Mr. Boozman, the Ranking 
Member, and continuing the cordial, bipartisan work of putting 
together a water resources bill. I have looked high and low and 
I cannot find any Democrat and Republican water nor roads. They 
do not go with a label, so we will not be going by a label 
here.
    As we saw with the Presidential veto override last 
Congress, water related infrastructure is not a partisan issue. 
These flood control, navigation, environmental restoration and 
other water related projects are far too important to our 
constituents, our local economies and the American peoples' 
lives and livelihoods.
    This afternoon, we will receive testimony from 
distinguished Members of Congress regarding projects and 
policies for consideration in the upcoming Water Resources 
Development Act. Our intent today is to receive testimony and 
begin to gather information on individual project requests so 
that we can be in position to move a new bill next year.
    Given today's economic circumstances, this is no small 
task, but with the growing need in opportunities to improve our 
water infrastructure and restore the environment, we must rise 
to the occasion and move forward without delay. It is my hope 
that unlike his predecessor, President Obama will join us in 
sweeping bipartisan support for continued investment in our 
Nation's water related infrastructure that is to be included in 
the Water Resources Development Act of 2010.
    Ms. Johnson. I yield to my Ranking Member, Mr. Boozman, for 
his comments.
    Mr. Boozman. Thank you, Madam Chair. We do appreciate your 
leadership and I totally agree with your statements about water 
being certainly nonpartisan.
    Today, the Subcommittee is meeting to hear testimony from 
Members of Congress regarding the request for a potential Water 
Resources Development Act of 2010. During the 110th Congress, 
the Subcommittee developed legislation authorizing Army Corps 
of Engineers' projects, those enacted in November 2007. WRDA 
2007 was essentially catch-up legislation since most Members 
were only allowed to request projects that were included in 
previous WRDA efforts.
    The Subcommittee on Water Resources is now giving Members 
of Congress an opportunity to make new requests to the 
Committee. This legislation reaffirms our commitment to 
developing the Nation's water resources by responding to the 
requests of Members of Congress related to projects in their 
districts and policy issues affecting the entire Army Corps of 
Engineers Civil Works Program.
    The Army Corps of Engineers is a very unique agency. Its 
military function began with the construction of the 
fortifications in preparation for the Battle of Bunker Hill in 
1775. In the early parts of the 19th Century, Congress directed 
the Corps of Engineers to open the Nation's waterways to 
commerce.
    From the beginning, the Corps of Engineers has been the 
only multi-dimensional and integrated Federal agency that 
supports economic and national security through its civilian 
and military functions.
    The current system works very well. With its integrated 
water resource missions including navigation and flood control, 
the Corps helps improve the Nation's economy. Having a civil 
works mission in the U.S. Army also provides a ready-made team 
of experienced engineers, scientists and other professionals 
that we can call upon in times of national emergencies and 
threats.
    For example, the Corps has undertaken reconstruction 
efforts in Afghanistan, Iraq, the World Trade Center and 
elsewhere. The most effective and efficient way to maintain 
this capability in a state of readiness is by keeping the Corps 
within the Department of Defense so the functions and 
capabilities can contribute to both the military and civil 
works missions.
    The Water Resources Development Act provides authority for 
the Corps of Engineers to carry out its missions of navigation 
improvements at harbors and waterways, flood damage reduction 
in our communities and environmental restoration at our lakes, 
rivers and wetlands. These projects reduce transportation 
costs, they save lives, homes and businesses from the ravages 
of flood waters and improve the quality of life. These projects 
also provide jobs and stimulate the economy.
    Today's hearing allows Members of Congress to explain the 
water resources needs of their districts and how this relates 
to the water resources needs of the Nation. I look forward to 
hearing from my colleagues.
    With that, I yield back, Madam Chair.
    Ms. Johnson. Thank you very much.
    The Chair now recognizes Mrs. Napolitano for remarks.
    Mrs. Napolitano. Thank you so very much, Chairwoman Johnson 
and Ranking Member Boozman, for holding this hearing and for 
working towards WRDA which is an important opportunity for 
Congress to reassess the challenges our Nation faces with water 
use and water quality.
    There are many challenges in my own State. California is 
facing its third year of drought; farmers and residents are 
facing water rationing and water usage is causing environmental 
damage and disrupting the food chain. Legislation in California 
passed an $11.4 billion water bond for next year's ballot. 
Hopefully it will address the water supply, water treatment and 
environmental restoration, but I am glad our Subcommittee plans 
to address these challenges through WRDA.
    I urge the Committee to look towards recycling, reuse and 
desalination. We must make critical investments in underground 
storage, water replenishment and remediation of our aquifers 
and address the fact that climate change is forcing us to 
change our water habits and be less dependent on traditional 
water sources such as rivers and dams.
    Madam Chairwoman, there are four specific projects in my 
district for which I will be requesting inclusion in WRDA. They 
include Appamona City Ground Water Clean Up Project, $2.3 
million to provide cleanup of perchlorate, VOCs and removal of 
17 of the Chino Basin wells that pump to the city's clean water 
reservoir. Due to the presence of this perchlorate, the city 
has stopped pumping out of nine of these wells resulting in 
loss of production of 10,900 acre feet of potable water per 
year.
    The other one is Pico Rivera Water District. The city seeks 
an authorization of $7.5 million to provide greater reliability 
and improvement of quality within the water district system. It 
requires extensive rehab, replacement of several of the most 
critical elements including water transmission, distribution 
pipelines, water supply wells, treatment facilities and the key 
reservoir and pumping station facility.
    Another one would be the city's water system Regional 
Inter-Tie Project, $250,000 to renovate inactive inter-ties and 
build new inter-ties which would enable the city to deliver or 
receive water with adjoining water systems. We are divided only 
by streets, we don't have a great amount of land between us.
    The next one is Los Angeles County Flood Control District, 
the River Watershed Environmental Assessment and Restoration 
Project for $50 million to prepare a feasibility study in 
addition to developing and constructing demonstration projects 
for ecosystem restoration, flood control, water quality 
control, water supply storage and outdoor recreation 
enhancement for the River Watershed.
    Using the watershed system approach, the study will provide 
detailed analysis of current state of the river and how it can 
be transformed into a valuable resource despite the 
urbanization of watersheds.
    Madam Chairman, thank you so very much for this hearing. I 
truly appreciate it and look forward to the opportunity to 
speak on behalf of the projects of my district.
    I yield back.
    Ms. Johnson. Thank you very much.
    Mr. Cao?
    Mr. Cao. Thank you, Madam Chair, and I would like to thank 
the Ranking Member for holding this important hearing today. I 
look forward to working with you and your staff on development 
of the Water Resources Development Act.
    WRDA is one of the most important pieces of legislation 
this Committee will tackle this year. It is important not only 
for the projects that will be authorized for the Army Corps of 
Engineers to study but also for the policy changes that will be 
implemented.
    As we have discussed at length in this Committee, the Army 
Corps of Engineers is a critical yet often assailed federal 
agency. They play an extremely important role in my district 
which includes Orleans and Jefferson Parishes of Louisiana.
    Hurricane Katrina revealed multiple flaws in the levees of 
my district. That resulted in one of the largest disasters in 
the history of the United States. As you know, my district has 
been waiting for over four years now for the Army Corps of 
Engineers to install storm protection mechanisms as mandated by 
Congress.
    In June 2006, temporary hydraulic pumps with gates were 
constructed at Lake Pontchartrain but these are not the most 
reliable mechanisms for storm protection to our communities. In 
June 2007, eye walls were replaced at the points of breech, the 
17th Street Canal, Orleans Avenue and London Avenue. On June 
15, 2006, $804 million was signed into law to implement 100 
year storm protection. This was to be used for pumping stations 
at the 17th Street, Orleans Avenue and London Avenue Canals. 
Additionally, the supplemental spending authorized and funded 
fortifications of existing internal pumping stations system-
wide.
    When the Army Corps of Engineers testified recently, I 
asked where is the additional storm protection, what is causing 
the delays, why has the Corps not started this construction and 
I have yet to receive the answers to these questions. We need 
action now. The project cannot be delayed any longer.
    Additionally, we need to have a reasonable understanding of 
the storm protection and flood control needs of my district. 
Our terrain and pumping systems are complicated, but they are 
sophisticated and the envy of many jurisdictions around the 
world.
    I am working with the Army Corps of Engineers as well as 
local officials and others to identify the projects which are 
of the greatest need and I look forward to discussing each of 
these projects further with you individually. This is an 
important effort and I look forward to our continuing 
collaboration to address the needs of my district as well as 
the other areas along the Gulf Coast.
    Thank you very much and I yield back my time.
    Ms. Johnson. Thank you very much.
    Mr. Hare?
    Mr. Hare. Thank you, Madam Chairwoman. I commend you and 
Ranking Member Boozman for holding this important hearing 
today. I want to commend you also for the sense of duty that 
you have in leading this Committee's jurisdiction over the U.S. 
Army Corps of Engineers' Civil Works Program.
    The Water Resources Development Act is a comprehensive 
water resources law that provides the U.S. Army Corps of 
Engineers with the authority to study water resource problems, 
construct projects and make major modifications to projects in 
its mission areas including flood and storm damage reduction, 
mitigation and ecosystem restoration.
    The last WRDA bill was passed in 2007 to address a backlog 
of project authorizations, modifications and studies since its 
previous authorization in 2000. I want to commend the 
Committee's leadership for getting this bill signed into law, 
for overriding President Bush's veto, making it the first 
Congressional override during President Bush's Administration. 
Unfortunately, despite the hard work of this Committee, many of 
these critical projects that were authorized have not been 
appropriated and still await funds.
    I have seven locks in my district and 247 miles of the 
Mississippi River. I toured one of the locks in Quincy, 
Illinois and the lock master asked me to take my fist and hit 
one of the pillars. I did that and a piece of concrete the size 
of a football came out. He said, if you think this is bad, you 
should see the lock north of us.
    We meet here today to hear proposals for crafting the next 
WRDA bill. Although there are many important issues that we 
need to address to get our existing authorizations from WRDA 
2007 appropriated, such as fixing and funding the mechanisms of 
the Inland Waterway Trust Fund, we must meet the responsibility 
of addressing new water resource issues which have arisen in 
the past two years.
    As we all know, the current economic slowdown has caused 
the loss of many jobs and the down turn of many sectors. These 
factors, nonetheless, have caused many economists to call the 
current situation the worse economic crisis since the Great 
Depression.
    I am a firm believer that investment in infrastructure is 
an investment in our economy. In addition to a long term 
surface transportation authorization, WRDA projects, if 
appropriated, can and will provide crucial funds to strengthen 
the infrastructure and workforce of this country. It is now 
upon this Subcommittee to ensure that the next WRDA is crafted 
wisely and will meet the water resource demands of this 
country.
    I look forward to hearing from our distinguished witnesses. 
I would like to again thank you, Chairwoman Johnson and Ranking 
Member Boozman, for holding this important hearing.
    I would yield back the balance of my time.
    Ms. Johnson. Thank you very much.
    Mr. Bishop?
    Mr. Bishop. Thank you, Madam Chair.
    Thank you and Chairman Oberstar for your leadership and 
dedication to the development of the Water Resources and 
Development Act and I look forward to working with both of you 
to pass this much needed legislation. I am hopeful we can work 
with our friends in the other body to adopt this legislation in 
a timely manner and closer to our goal of a bi-annual bill.
    My district encompasses 300 miles of eastern Long Island's 
coastline which includes some of the most popular and beautiful 
beaches in the country and waterways that I am very proud to 
represent. Maintaining our coastal resources is an important 
objective not only in my district but to the tourists and 
fishing economies of our States that rely on clean, navigable 
waterways.
    Long Island benefits from the good work that the Army Corps 
does for coastal communities by helping small towns deal with 
everything from erosion to longstanding environmental concerns. 
The Corps is currently working on several projects on eastern 
Long Island that will dredge inlets, study coastal health and 
restore damaged ecosystems.
    I am very pleased to see the Subcommittee consider several 
pieces of legislation including this new WRDA bill that will 
benefit Long Islanders and everyone who visits public beaches 
throughout the Country.
    I again thank you, Madam Chair, for your hard work on this 
issue and look forward to working with you and our colleagues 
to pass this legislation.
    I yield back.
    Ms. Johnson. Thank you very much.
    Before we proceed with our panel, I ask unanimous consent 
that the testimony of Congressman Bart Stupak and Congresswoman 
Madeline Bordallo be entered into the record. Without 
objection, so ordered.
    Ms. Johnson. In the tradition of this Committee, I will 
call on you in the order in which you arrived at the Committee. 
The first speaker will be Ms. Kosmas from Florida, second will 
be Mr. Boustany from Louisiana, third will be Mr. Dave Loebsack 
from Iowa, fourth is Mr. Charlie Melancon, fifth is Mr. Ron 
Klein, sixth is Mr. Steve Scalise and seventh is Mr. Ed 
Whitfield. You may begin.

TESTIMONY OF THE HONORABLE SUZANNE KOSMAS, A REPRESENTATIVE IN 
   CONGRESS FROM THE STATE OF FLORIDA; THE HONORABLE CHARLES 
 BOUSTANY, JR., A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
  LOUISIANA; THE HONORABLE DAVE LOEBSACK, A REPRESENTATIVE IN 
    CONGRESS FROM THE STATE OF IOWA; THE HONORABLE CHARLIE 
   MELANCON, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    LOUISIANA; THE HONORABLE RON KLEIN, A REPRESENTATIVE IN 
    CONGRESS FROM THE STATE OF FLORIDA; THE HONORABLE STEVE 
    SCALISE, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
  LOUISIANA; THE HONORABLE ED WHITFIELD, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF KENTUCKY

    Ms. Kosmas. Thank you, Madam Chairman.
    Chairwoman Johnson and Ranking Member Boozman, I would like 
to thank you for allowing me to have the opportunity to testify 
today about a project of great importance to my district, the 
construction of the South Jetty at the Ponce de Leon Inlet in 
Volusia County on the east coast of Central Florida. This 
project was the county's number one funding priority for fiscal 
year 2010 appropriations and is also supported by a number of 
other users including commercial businesses in the county.
    This project was first approved for study by the Army Corps 
in 1991. The study was completed in September 1999 and 
authorized in that year's WRDA bill. The Corps study 
recommended construction of a 1,000 foot long seaward extension 
of the existing south jetty which is now buried under sand.
    The study and the authorization were achieved after many 
years of advocacy by the local congressional delegation in 
support of Volusia County's continued efforts to achieve a more 
stable Ponce de Leon Inlet. Based on the 1998 prices, the 
funding level authorized was a total of $5.45 million for the 
project. All the necessary non-federal funds based on this 
funding level have already been secured by the county with the 
State of Florida and the Florida Inland Navigation District 
also contributed.
    The project has received federal funds in fiscal years 
2005, 2006 and 2008. Additionally, I helped to secure the final 
portion of the federal funds required by the original 
authorization in the Omnibus Appropriations Act, 2009 and in 
the fiscal year 2010 Energy and Water Development 
Appropriations Act which would have allowed construction to 
begin this year.
    Unfortunately, based on rising granite prices on another 
jetty project in Florida, inflation and a redesign to address 
concerns over surf conditions, the Army Corps revised its cost 
estimate this summer to $18.7 million. In order to comply with 
Section 902, maximum cost requirements, this revised cost 
estimate requires reauthorization of the project. Therefore, I 
am here today to ask you to consider including language to 
modify the original authorized funding level in the Water 
Resources Development Act of 2010.
    This request stems from a meeting I convened in August with 
Volusia County and with the Jacksonville District of the Army 
Corps, including the new district head, Colonel Pantano and the 
project manager. We met in order to establish an action plan to 
address the rising costs.
    At the meeting, all parties, including myself, agreed to 
pursue additional funding as well as investigate the 
possibilities of reducing costs by studying options such as 
mixing different material with the granite and constructing a 
shorter jetty. Even with a very tight budget, Volusia County 
committed to meeting the revised, non-federal cost share 
despite its quadrupling from $2.46 million to $8.15 million. 
Volusia County has maintained a fruitful partnership with the 
Jacksonville District.
    With your approval, I would like to submit a letter from 
the County stating its strong support for this project into the 
record.
    Ms. Johnson. Without objection.
    [The information follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    Ms. Kosmas. Along with Volusia County, I believe we must 
complete this project. Otherwise the inlet will continue to be 
extremely dangerous for navigation including access to the 
nearby Coast Guard station. More specifically, this proposal 
will improve navigation and safety for commercial, recreational 
and Coast Guard boat traffic by moving the deep water channel 
from the north side to the center of the inlet. The inlet's 
current instability allows for excessive shoaling, with 
sediment deposited in the mouth of the jetty. This has caused 
capsizing of numerous boats and even boat related deaths.
    The reduction of sediment deposition in the inlet and the 
Atlantic Intercoastal Waterway will also result in the 
accumulation of sand on the south-facing beaches which will 
lead to the reversal of current erosion patterns and will help 
to reduce the Federal recurring operations and maintenance 
costs associated with the inlet.
    Additionally, the County expects approximately 80 new jobs 
which are greatly needed in Central Florida would be created by 
this project.
    In conclusion, construction of the South Jetty extension 
will create a complete solution with the North Jetty by 
providing a safe and navigable inlet for boaters and protecting 
valuable beaches and surf conditions.
    Thank you again for allowing me to testify and I look 
forward to working with you to complete this vital project.
    Ms. Johnson. Thank you very much.
    Let me say that how much time you take has no bearing on 
your project. That is one of our unwritten rules.
    Mr. Boustany?
    Mr. Boustany. Thank you, Chairwoman Johnson and Ranking 
Member Boozman. I really appreciate the opportunity to testify 
today.
    As a former Member of this Subcommittee charged with 
addressing critical water resources infrastructure, I am really 
pleased to return today to provide remarks regarding a very 
important issue.
    Madam Chair, I ask unanimous consent to put my full 
statement in the record.
    As we start work on the Water Resources Development Act, I 
am very concerned about the negative impacts on Federal ports 
and harbors that cannot be fully maintained with existing U.S. 
Army Corps of Engineers funding levels. Because most ports do 
not have naturally deep harbors, they must be regularly dredged 
and maintained to allow ships to move safely through Federal 
navigation channels.
    Madam Chair, I am seeking full access for our ports to 
annual revenues deposited into the Harbor Maintenance Trust 
Fund generated by the ad valorem Harbor Maintenance Tax for 
operations and maintenance dredging in the United States.
    In 2008, the Harbor Maintenance Tax collected more than 
$1.6 billion from shippers for the purpose of funding dredging 
projects. However, only $766 million of dredging and related 
maintenance costs were reimbursed from the fund, whereas ports 
and harbors were unable to dredge to their authorized project 
dimensions. Our ports and harbors are the gateways to domestic 
and international trade connecting the United States to the 
world.
    Responsible for moving more than 99 percent of the 
Country's overseas cargo, U.S. ports and waterways handle more 
than 2.5 billion tons of domestic and international trade 
annually and that volume is projected to double within the next 
15 years, particularly after the expansion of the Panama Canal.
    In 2007, there were $13.3 million port-related jobs, 9 
percent of all jobs in the United States that account for $649 
billion in personal income. A $1 billion increase in exports 
creates an estimated 15,000 new jobs. There are many examples 
of dredging problems in ports and harbors across the Nation. In 
many cases, vessels must light load because of dredging 
shortfalls. The economic implications of light loading are 
enormous. A ship that is light loaded reduces its efficiencies 
in the same way that a commercial airline that is required to 
set aside seats with no passengers would quickly lose its 
efficiencies.
    America's deep draft navigation system is at a crossroads. 
Our waterways' ability to support the Nation's continuing 
growth in trade and in the defense of our Nation hinges on much 
needed Federal attention to unresolved funding needs that are 
derailing critical channel maintenance and deep draft 
construction projects of the water highways to our ports.
    The Subcommittee should use this unique opportunity to make 
the changes that need to be made now so that future port 
dimensions affecting trade, jobs and our national defense will 
not be compromised.
    Madam Chair, in addition to my testimony, I also would like 
to submit to the record a copy of a bipartisan letter sent to 
Chairman Oberstar and Ranking Member Mica, which is signed by 
53 Members from various parts of the Country in support of this 
proposal.
    [The information follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    Mr. Boustany. I would be glad to take questions.
    Thank you, Madam Chair.
    Ms. Johnson. Thank you very much.
    Mr. Loebsack?
    Mr. Loebsack. I want to thank Chairwoman Johnson, Ranking 
Member Boozman and distinguished Subcommittee Members for 
giving me the opportunity to speak to the merits of projects 
for inclusion in the upcoming Water Resources Development Act 
of 2010. I will be a bit briefer than I planned to be. Thank 
you, Chairman Johnson, for that suggestion.
    In my home State of Iowa, the importance of water 
infrastructure was brought to the forefront in December 2008. 
Many communities in Iowa experienced flood levels that exceeded 
the estimated 500 year flood level just 15 years after the last 
500 year flood of 1993.
    My district was hit particularly hard by this flooding, 
especially the City of Cedar Rapids which suffered arguably the 
most damage of any city in the Midwest. The City of Cedar 
Rapids surrounds the Cedar River which reached a crest of 31.12 
feet, 11 feet above the previous record set in 1929. Given this 
record crest, what flood protection that was in place in Cedar 
Rapids was breached resulting in widespread evacuations.
    There were over 7,000 properties, including over 5,000 
residential properties, damaged or destroyed by the flooding 
causing literally billions of dollars of damage in this city 
and county alone.
    I want to thank my colleagues for working with me in the 
last Congress to pass two different disaster relief 
supplemental appropriations bills. While these funds have gone 
a long way toward our recovery, a critical piece remains for 
the City of Cedar Rapids and that is flood protection along the 
river. Cedar Rapids has already begun to take steps to address 
this need.
    Currently the city is in the process of implementing a 
hazard mitigation voluntary buy-out program to make way for 
future flood protection and prevention opportunities and to 
implement a collaborative neighborhood and downtown 
redevelopment plan which includes significant amounts of levee 
parks and greenway areas, removable and permanent flood walls, 
watershed management and land use and zoning changes.
    The city is working to coordinate their activities with the 
Army Corps of Engineers. A feasibility study was authorized in 
2006 for a small area of the Cedar River prior to the 2008 
flood. A cost share agreement was signed in May 2008, one month 
before the devastating flood. As a result, the study was 
expanded in May 2009 to include the entire span of the Cedar 
River within the city limits to examine flood risk management 
options. This is the largest urban flood risk management study 
ever undertaken by the Rock Island Corps of Engineers.
    As of October, the study was approximately 45 percent 
complete. The Corps estimates a draft feasibility study will be 
ready in early 2010 with the Chief's report ready by the end of 
2010. The $7.5 million study has received around $3.85 million 
in Recovery Act funds, $2 million in local funds and 
appropriations in previous years through Congress.
    The Corps is progressing at a rapid speed and is aiming to 
complete the study in a little over a year where similar Corps 
studies generally take three to five years. The flood risk 
management alternative that is being developed by the Corps 
will pose challenges for the community and the construction of 
a flood protection project will require close cooperation 
between Congress, the Corps and the City just as many flood 
protection projects in the past have required.
    Given the timing, critical nature and speed with which the 
Corps will complete the study, I look forward to working with 
the Subcommittee in the future to ensure an opportunity to 
pursue flood risk management options with participation from 
the Corps.
    Thank you today for allowing me to testify.
    Ms. Johnson. Thank you very much.
    Mr. Melancon?
    Mr. Melancon. Thank you, Madam Chairman. I appreciate the 
opportunity to be before the Committee today.
    The Morganza to the Gulf Hurricane Protection Project is a 
64-mile long system of levees, locks, flood gates, all in south 
Louisiana that when complete protect about 120,000 people and 
1,700 square miles of land against deadly and destructive storm 
surges such as those caused by Hurricanes Katrina, Rita, 
Gustav, and Ike.
    Morganza would protect an area of the Country responsible 
for one-third of our Nation's oil and natural gas production. 
Our coastal wetlands are a habitat for 30 percent of the sea 
food consumed in this country. Our communities are great places 
to live with some of the Nation's most stable housing prices 
and lowest unemployment rate. It is the working coast of the 
United States.
    Morganza was first considered in the early 1990s when a 
reconnaissance study was completed to determine if providing 
hurricane protection to southeast Louisiana was in the federal 
interest. Ultimately, the study found that the contributions 
these communities make to our Nation's energy security made it 
in the federal interest to protect this area from hurricanes 
and storm surge.
    While WRDA 2000 included an authorization for Morganza to 
the Gulf, it was contingent upon a Chief's report being 
completed that year. The Corps of Engineers missed that 
deadline and progress on Morganza screeched to a halt. However, 
Morganza is so critical in protecting these communities from 
hurricanes, the locals passed a tax themselves to try and build 
part of the levee system on their own. Instead of standing idly 
by and waiting for the Federal Government to save them, the 
citizens of this area have been and still are taxing themselves 
at a rate of $6 million a year to protect this important area, 
not only for their livelihood and their property but for that 
of the country.
    The State of Louisiana has also committed significant 
resources to begin construction without Federal assistance, but 
they need the Federal Government to be a partner in this 
project and have anxiously followed the progress of WRDA for 
years, hoping for a full authorization for Morganza.
    In November 2007, WRDA overcame a presidential veto and 
authorized Morganza to the Gulf at $886.7 million, the cost 
estimate supplied by the Corps. In December of 2007, one month 
later, the Corps decided that the project would exceed its 
authorization level by more than 20 percent and must be 
reevaluated. This is an unusual treatment for a project that 
has not received any post authorization of federal construction 
appropriations.
    To make matters worse, the Corps has essentially stopped 
all progress on this project while they completed a reanalysis 
due in December 2012. Engineering and design work that was 
funded and ongoing in 2006 again has been halted.
    This past spring of 2009, after reviewing for nearly a year 
and re-reviewing alternatives that were also part of the EIS 
alternative process for the Chief's report, the Corps returned 
to its position of supporting the project alignment that was 
within the Chief's report completed in August 2002. Seven years 
without hurricane protection and the Corps was right back where 
it started.
    It is inexcusable to me that the Corps has failed to move 
this project forward even after a long process of becoming 
authorized by this Committee. Worse yet, Federal dollars that 
could be better spent on construction are wasted on continuing 
studies for elements already studied and settled upon. As the 
Corps evaluates Morganza to the Gulf for the third time, 
keeping the clock running during their decades of analysis, my 
constituents remain exposed to the Gulf of Mexico and the 
deadly storms that continue to batter our coast.
    By delaying progress on Morganza, the Federal Government is 
turning a deaf ear to the 120,000 Americans in south Louisiana 
who currently have little or no defense against storms and are 
like sitting ducks in the path of the next killer hurricane. We 
are jeopardizing the energy security of our entire Nation at 
the same time.
    As we remember all too well from Hurricanes Katrina and 
Rita, shutting down the infrastructure in south Louisiana and 
in the Gulf of Mexico that supports oil and gas production has 
been a serious economic impact on this entire Nation. To 
address this, I plan to work with the Committee between now and 
December 3 to find a way forward to expedite construction of 
the Morganza Hurricane Protection Project. The time for delays 
and endless re-evaluations has passed. We must move forward 
whether it is by constructing elements that are ready to be 
built now or by finally building the entire system, a project 
that has already completed the NEPA process and is included in 
the Chief's report.
    Morganza to the Gulf will provide critical hurricane 
protection to well over 100,000 Americans in south Louisiana, 
help prevent further loss of wetlands and increase our Nation's 
energy security. We cannot afford to delay it any longer.
    I thank you for the time you have rendered me.
    Ms. Johnson. Thank you very much.
    Mr. Klein?
    Mr. Klein. Thank you, Chairwoman Johnson and Ranking Member 
Boozman for holding this important hearing and for your 
leadership working with Chairman Oberstar and Ranking Member 
Mica in pushing forward with a new Water Resources Development 
Act for 2010.
    As we all know, WRDA was originally designed to be a 
biannual bill. But during this decade, Congress fell off course 
and failed to pass a WRDA bill after 2000 until 2007. For seven 
years, critical Army Corps projects and studies fell behind 
schedule due in part to Congressional inaction.
    Of particular concern to my constituents in Florida was the 
Comprehensive Everglades Restoration Project, otherwise known 
as CERP. Originally authorized in WRDA 2000, CERP represents 
the largest ecosystem restoration effort in the history of the 
United States working with the U.S. Army Corps of Engineers.
    Its purpose is to restore the historic water flow of 
Florida's unparalleled Everglades ecosystem through a variety 
of component projects such as the creation of stormwater 
storage reservoirs, aquifer storage and recovery wells and 
stormwater treatment areas.
    As a State Senator in the Florida Legislature during this 
time and as one of the authors and co-sponsors of the 
Everglades Forever Act, which was our Florida legislative Act, 
I know that the Federal Government's inaction was incredibly 
frustrating in light of the 50-50 agreement between State and 
local entities and the Federal Government. In our view, Florida 
was pouring billions of dollars into Everglades restoration 
while the Federal Government was failing to live up to its end 
of the bargain.
    That is why I want to commend this Committee for helping to 
fulfill the Federal Government's commitment to Everglades 
restoration. Through your leadership in the last year, we made 
a significant step forward in Everglades restoration with WRDA 
2007. With passage of the WRDA bill in this Congress, we 
continue our commitment by authorizing a new set of CERP 
projects.
    I want to highlight one important CERP project in my 
backyard known as the Broward Water Preserve Area Project which 
is located in central and southern Broward County and the 
northern Miami Dade County areas. The projects are designed to 
improve Everglades water quality by enhancing the buffer 
between residential development and protected Everglades 
wetlands, capture and divert stormwater runoff and reduce 
underground seepage. This project is shovel ready and ready to 
go. All construction plans and specifications are complete and 
all Federal, State and local permits have been issued. That is 
why it is critical that this project be included with your 
support in this new WRDA bill.
    I strongly urge this Committee to consider this project 
along with other Everglades projects that Members of the 
Florida delegation will be submitting, so we can continue our 
historic commitment to restoring the River of Grass and keep 
the unparalleled natural splendor a national treasure for 
generations to come.
    Thank you, Madam Chair and Ranking Member.
    I yield back my time.
    Ms. Johnson. Thank you very much.
    Mr. Scalise?
    Mr. Scalise. Thank you, Chairwoman Johnson, Ranking Member 
Boozman and Members of the Subcommittee, for allowing me the 
opportunity to address you today. I appreciate the commitment 
by your Committee to move forward on this important 
legislation.
    I represent Louisiana's 1st Congressional District which 
encompasses all or parts of six parishes in the greater New 
Orleans area, including Jefferson, Orleans, St. Charles, St. 
Tammany, Tangipahoa and Washington Parishes.
    Southeast Louisiana has faced many challenges since the 
destruction caused by Hurricane Katrina's storm surge and the 
failure of the Federal levees in New Orleans. While major 
investments have been made to the infrastructure in our 
region--I thank this Subcommittee for your work on the 2007 
WRDA bill--much of the region remains completely unprotected 
from hurricane storm surge and the Corps continues to ignore 
their own reports that have identified the best options for 
pursuing the strongest level of protection for the people and 
also the national assets in southeast Louisiana.
    To illustrate this point, I would like to offer a few 
examples and would like to ask unanimous consent to submit a 
more detailed statement for the record.
    Mr. Scalise. The Corps told our delegation that the 
Category 5 Report, titled Louisiana Coastal Protection and 
Restoration Study, will be released this December. Not only is 
this report long past due but when it is finally released, we 
are being told it will not include specific project 
recommendations for this Committee and this Congress to move 
forward on.
    While the report will not list specific project 
recommendations as intended by Congress when it was authorized, 
one key alternative that should be presented in the report 
provides an option for a Lake Pontchartrain barrier plan which 
would provide storm surge protection to residents on both the 
north and south shores of Lake Pontchartrain.
    It is critical to note here that this project would provide 
much needed protection to St. Tammany Parish on the north shore 
which currently has no protection whatsoever from hurricane 
storm surge entering Lake Pontchartrain.
    In the wake of Hurricane Betsy over 40 years ago, Congress 
authorized a similar hurricane protection project that proposed 
locks at Chef Menteur Pass and the Rigolets to prevent storm 
surge from entering the Lake. Barriers in these locations which 
would protect both the north and south shores of the Lake could 
have prevented the massive breeches in the federal levees that 
left much of my district and the City of New Orleans inundated.
    We must revisit the feasibility of building storm surge 
barriers at the Rigolets and Chef Pass to provide the strongest 
level of protection to the people and businesses on both the 
north and south shores of Lake Pontchartrain.
    While the project I just described was halted not by the 
Corps but by outside radical environmental groups in the 1970s, 
we continue to wrangle with the Corps on various projects in my 
region at both the study level and construction level. For 
example, despite congressional intent and direction to modify 
the three outfall canals in Jefferson and Orleans Parishes, the 
Corps continues to proceed with a plan called Option 1 which 
does not provide the best level of hurricane protection for the 
people in these parishes.
    The Corps has noted in its own report to Congress that two 
different plans called Options 2 and 2A are more reliable 
options for hurricane and flood protection. There are also a 
number of projects in addition to this in which the Corps 
continues to delay critical reports and studies that were 
authorized by Congress.
    As we work towards this next WRDA bill, I look forward to 
working with you all to expedite these studies and reports, 
address critical cost sharing issues and improve and secure our 
Nation's key federal navigable waterways in south Louisiana.
    One final thing I would like to note is the importance to 
our Country of coastal protection and restoration. A crucial 
component of comprehensive hurricane protection includes 
rebuilding and restoring our coastline. Coastal erosion in 
Louisiana has reached catastrophic levels. Louisiana loses 
approximately 24 square miles of coastal wetlands each year. 
Not only are our wetlands important to Louisiana and the Gulf 
Coast, but these wetlands also protect infrastructure of 
national significance.
    Five of the largest ports in the United States are located 
in south Louisiana. About one-third of all oil and gas 
production comes across the coast of Louisiana and we provide 
26 percent of the commercial fish landings in the lower 48 
States. In 2006, Louisiana voters overwhelmingly approved a 
constitutional amendment to dedicate the State share of 
offshore oil and gas revenues to hurricane protection and 
coastal restoration projects. Our State has made this 
commitment but in order to protect these invaluable national 
resources, the Federal Government must join us in our efforts 
to make meaningful investments in coastal restoration.
    I look forward to working with your Committee on these 
projects as a WRDA bill is drafted for 2010. Again, I 
appreciate the opportunity to speak before the Committee today.
    Thank you, Madam Chair.
    Ms. Johnson. Thank you very much.
    Mr. Whitfield.
    Mr. Whitfield. Chairwoman Johnson and Ranking Member 
Boozman and other Members of the Committee, I want to thank you 
for your patience and giving us an opportunity to talk about 
some problems in our districts.
    On January 22, 2007, almost three years ago, I was startled 
to hear from the Nashville District Office of the Army Corps of 
Engineers that Wolf Creek Dam, located on the Cumberland River 
in my district, was at high risk for failure. As a matter of 
fact, the Corps, at that time, placed the rehabilitation of 
this dam as one of its top five national priorities.
    The Corps said at that time that if this dam failed, it 
would result in loss of life, flooding all the way to 
Nashville, Tennessee, which was about 100 miles away, and 
billions of dollars in private property damage.
    In order to immediately address the problem and remove the 
possibility of failure, the Corps directed the lowering of the 
pool level from 723 feet in the summer and 690 feet in the 
winter immediately to 680 feet. This has had three impacts on 
the community. First of all, Congressman Hal Rodgers and I, 
working with the Governor and others, were instructed we need 
to get warning sirens because the threat of dam failure is so 
immediate that it was imperative the people be notified if it 
happened. We were successful in doing that.
    The second thing that happened was this is a huge 
recreation area and in the summer, the pool levels were so low 
to keep pressure off the dam that many businesses in the area 
went out of business and there were many bankruptcies through 
no fault of their own, because they had nothing to do with the 
safety of this dam.
    The third thing that has occurred is that now it is my 
understanding that the Corps of Engineers has said that the 
rehabilitation and the money spent on this dam is not safety 
related which was totally unbelievable to us in the area 
because even the national Corps of Engineers office has said 
this has always been a safety issue.
    The reason it is important to determine if it is safety 
related or not is because of the way it is going to be paid for 
under Section 1203 of the Water Resources Development Act of 
1986. If it is determined not to be a safety issue, then the 
electric rates for everyone in that area will be increased by 
46 percent at a time when we have high unemployment, we have 
many people without jobs and we have many businesses that 
literally went bankrupt through no fault of their own.
    I would simply ask the Committee respectfully as you move 
forward on this legislation that we be given an opportunity to 
work with you to do everything that we possibly can to make 
sure these electric rates are not increased because the Corps, 
in a capricious manner in my view, has determined now at the 
national level that this is not a safety issue which is 
unbelievable because all along it was made very clear to us 
that it was in imminent danger of breaking, lives were 
threatened, property damage was threatened and it was an 
emergency issue.
    I want to thank you for giving me the opportunity to 
testify and I look forward to working with you on this issue as 
well as the issue affecting those people who went bankrupt.
    Thank you.
    Ms. Johnson. Thank you very much.
    Thanks to all of you for coming and presenting your needs.
    Thanks to the Members of the Committee for coming and 
listening. We all working together will do the best we can to 
address all of the important issues.
    The Committee is adjourned.
    [Whereupon, at 2:50 p.m., the Subcommittee was adjourned.]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


</pre></body></html>
